WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-930

Karl Geppert

v.

Maryland Motor Vehicle Administration

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be ﬁled by a Bar member.
Digitally signed by Julia Doyle Bernhardt
DN: cn=Julia Doyle Bernhardt, o=Office of the Attorney General of Maryland, ou=Civil Litigation Division,
email=jbernhardt@oag.state.md.us, c=US
Date: 2021.01.22 13:00:45 -05'00'

Julia Doyle Bernhardt
Signature

January 22, 2021
Julia Doyle Bernhardt
(Type or print) Name
Date:

□ Mr.

□ Ms.

□ Mrs.

□ Miss

Office of the Attorney General of Maryland
200 Saint Paul Place
Address
Baltimore, Maryland
21202
City & State
Zip
jbernhardt@oag.state.md.us
(410) 576-7291
Phone
Email
Firm

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

Karl Geppert

